OFFICE OF 
INSPECTOR GENERAL

Semiannual  Report  to  Congress

o c to b er   1 ,   2 0 0 8 – m a rch   3 1 ,   2 0 0 9


                                                                                 ND RECORD
                                                                               SA         S
                                                                                     L I TTERA
                                                                         NAL CHIVE




                                                                                     SCRIPTA
                                                                                                  AD




                                         national   archives   and
                  M A NE T
                                                                                                    MINISTRAT
                                                                            AR




                                         records  administration

                                                                      TIO




                                                                                                 ON
                                                                                                             I




                                                                                NA
                                                                                     19 8 5
                                   FOREWORD
This office works to support the core mission of the National Archives and Records
Administration (NARA). NARA's mission is to serve American democracy by safeguarding
and preserving the records of our Government to allow the people to discover, use and learn
from our history. Consistent with this definition, seven of the top ten management challenges
we have identified are directly related to the agency's record holdings. These challenges are:

        ~   The Electronic Records Archives
        ~   Improving Records Management
        ~   Information Technology Security
        ~   Expanding Public Access to Records
        ~   Meeting Storage Needs of Growing Quantities of Records
        ~   Preservation Needs of Records
        ~   Physical and Holdings Security

The work NARA Office of the Inspector General (OIG) auditors and investigators routinely
perform touches upon each of these areas. Our investigations and audits do not directly
impact the food supply chain, the monetary markets, development of weapons systems,
telecommunications or space exploration. However, a myriad of other functions and
operations of the Federal government do affect those areas. These Federal programs will
generate records which must be woven by NARA into the tapestry of our democracy for this
and future generations to use in a manner yet to be determined. As we have pointed out
before, as our nation's record keeper NARA is the common link throughout every program in
the Federal government. We must be diligent, as only history will bear testament to whether a
record created today will have little or no merit to future generations, or conversely be a
document with historical resonance and import.

I am proud of the work we have accomplished in this semiannual reporting period, and for the
ongoing work being executed by this office. I am also encouraged that the NARA OIG will
obtain additional resources in both the near term and in the coming fiscal year to support our
work. I thank those individuals who have come to support this office and help provide us with
the resources needed to conduct our work and in turn that of the American people.



                                     p?~~/ '//~
                                                   PaulB~feld
                                                   Inspector General




SEMIANNUAL REPORT TO CONGRESS
October 1,2008 to March 31, 2009                                                  Pagei
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2 


Introduction .................................................................................................................................10 


Activities .......................................................................................................................................12 


Audits ...........................................................................................................................................14 


Investigations................................................................................................................................21 


Top Ten Management Challenges .............................................................................................26 


Reporting Requirements ............................................................................................................29 





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

This is the 41st Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top challenges is provided under the section
titled “Top Ten Management Challenges.” The highlights of our major functions are
summarized below.

                                           Audits
In this reporting period, the Audit Division continued to examine the development of NARA’s
Electronic Records Archives system, security of NARA’s Information Technology (IT) systems,
and assess the economy and efficiency of NARA’s programs. Our work this period had a
positive impact on agency operations and controls in these critical areas. Recommendations
directed to NARA officials will, upon adoption, translate into reduced risk for the agency, and
increased levels of security and control over NARA’s financial assets, programs, and operations.

We issued the following audit reports during the reporting period:
	 OIG Monitoring of the Electronic Records Archives Program Status. This audit,
   performed to advise the Acting Archivist of the current status of the “Base” Electronic
   Records Archives (ERA) program, focused upon whether (a) the ERA Program is meeting
   cost and schedule requirements, and (b) management is taking timely action to correct any
   actual or potential problems. As of the end of fiscal year (FY) 2008, internal ERA program
   documentation reflected the ERA was progressing satisfactorily in accordance with the
   program’s rebaselined cost and schedule objectives. However, to date, program officials are
   unable to clearly define when, how, or if the ERA will be fully operational, and have not
   been able to provide a clear definition of what the ERA’s functionality will be at Full
   Operating Capability (FOC). Thus in our opinion, it is likely the ERA System will not
   achieve the originally envisioned functionality at the delivery of FOC in 2012 and additional
   funding may be needed to complete the program. It should be noted that in a March 31,
   2008 letter to NARA the Chairman of the Subcommittee on Financial Services and General
   Government, expressed similar concerns seeking clarity on what the ERA is intended to do
   or provide, and when. (Advisory Report #09-03, dated January 6, 2009. See page 15. )

	 OIG Monitoring of the Executive Office of the President (EOP) System. This audit,
   initiated to advise the Archivist of the status of the EOP system (a part of the ERA) as of
   January 2009, addressed sensitive but unclassified electronic data to be transferred to NARA
   from the George W. Bush administration. In response to ERA schedule delays, the
   development of the EOP system was split off from the base ERA, and uses a different
   architecture. Due to the expected volume of electronic records from the Bush
   administration, and the possibility of receiving these records in unknown or incompatible
   formats, NARA will not be able to rely solely on the EOP System to comply with the
   Presidential Records Act, and will incur additional costs resulting from maintaining
   additional systems, ingesting the data, and putting the data in a format searchable in the
   EOP. (Advisory Report #09-06, dated January 13, 2009. See page 15.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 2
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

	 The Omission of Classified Electronic Records from the EOP System. Due to schedule
   delays, the development of ERA is proceeding on two separate tracks: the ERA Base System
   and the EOP System. The EOP System will provide ingest, search, and retrieval capabilities
   for the records of the George W. Bush Administration. This audit, undertaken to assess the
   status as of January 2009 of the handling of classified electronic records from the George W.
   Bush administration, revealed NARA removed classified records from the scope of the
   requirements for the EOP System. Therefore, classified records from the George W. Bush
   administration will not be included in the EOP System. In our opinion, this will negatively
   affect the cost and implementation schedule of the ERA project. NARA officials stated the
   reason for not including classified records in the EOP System was the lack of funding and
   the additional level of effort needed to certify and accredit a system with classified records.
   ERA was to enhance NARA’s ability to comply with the requirements of the Presidential
   Records Act by providing rapid ingestion of data in a permanent, secure environment and
   eliminating the need to migrate the data to new or updated systems in the future. Excluding
   classified records from the EOP System raises the following concerns: (a) what are the
   associated costs to maintain classified electronic records in a non-ERA system, (b) what are
   the additional costs needed to develop and implement an EOP National Security System
   (NSS) in the future to handle classified records, and (c) how will the cost and schedule of
   the overall ERA development effort be impacted. (Advisory Report #09-07, dated January
   16, 2009. See page 16.)

	 NARA’s Transition to Internet Protocol Version 6 (IPv6). This audit assessed NARA’s
   efforts to transition to IPv6. Specifically, our objective was to determine whether NARA
   was in compliance with an OMB mandate, and if not, to identify what major obstacles or
   challenges exist and whether the agency developed a plan for compliance. NARA did not
   comply with the OMB mandate because NARA has not verified whether the network
   backbone is capable of supporting IPv6. Specifically, IPv6 testing on the production
   environment did not test NARA’s ability to transport IPv6 traffic through all devices in the
   core network and did not test whether NARA could successfully receive and transmit IPv6
   traffic outside NARA’s network. As a result, NARA does not have assurance their planned
   implementation strategy will work. We also found additional work is needed in this area.
   For example, NH officials involved in planning for the IPv6 transition did not identify or
   address associated risks and challenges. If not addressed, these risks and challenges may
   result in increased costs and security risks associated with the transition to IPv6. In addition,
   new IT equipment orders did not contain a requirement to be IPv6 compliant or interoperate
   with both IPv4 and IPv6 systems. As a result, NARA may have to spend additional funds to
   acquire IPv6 compliant equipment. We made five recommendations, which upon
   implementation, would bring NARA into compliance with OMB requirements and provide
   the foundational structure for transition into IPv6. However, the Chief Information Officer
   has not fully concurred with concerns specific to four of the recommendations. (Audit
   Report #09-05, dated March 11, 2009. See page 17.)




SEMIANNUAL REPORT TO CONGRESS                                                              Page 3
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

	 Controls over Presidential Library Textual Records. As a result of a congressional
   request received from United States Senator Charles Grassley’s office, we conducted a
   multifaceted audit of the actions taken by Presidential Libraries to protect and preserve
   Presidential collections. This audit revealed the controls over Presidential library textual
   records, in general, appear to be adequate and functioning properly. However, we found
   controls can be improved over a subset of records known as Specially Protected Records
   (SPRs). The records are subject to more stringent controls because they are deemed highly
   valuable and vulnerable. Specifically, (a) Presidential libraries are not in compliance with
   several NARA requirements concerning the security and handling of SPRs; (b) the Security
   Management Branch (NASS) has not inspected/certified SPR storage areas, and; (c) current
   guidance is not adequate for ensuring accountability of SPRs at Presidential libraries via
   sampling. We made four recommendations for improvement. Management agreed only to
   update their regulation on holdings security, and then evaluate the other recommendations
   afterwards. (Audit Report #09-01, dated January 14, 2009. See page 18.)

	 Regional Archives Compliance with Procedures for Controlling Specially Protected
   Holdings. While performing field work for the Presidential Libraries audit (Audit Report
   #09-01) the OIG discovered the regional archives were not in compliance with several
   aspects of a NARA directive (NARA 1572) relating to specially protected holdings. As a
   result, we performed audit work of Office of Regional Records Services (NR) processes
   relating to NARA 1572. We found regional archives had not performed the following
   required activities relating to controls over specially protected holdings: (a) nominated
   selected staff for background checks required to access vaults or other specially protected
   areas; (b) reported their storage methods, exact container locations, and names of staff with
   access to specially protected holdings, and; (c) performed annual inventories of specially
   protected holdings and provided the results to the office head. As a result of these
   conditions, NR lacks assurance specially protected holdings are being controlled in a manner
   consistent with their value. We made four recommendations that upon implementation will
   address the weaknesses cited. Management agreed only to update their regulation on
   holdings security, and then evaluate the other recommendations afterwards. (Audit
   Memorandum Report #09-04, dated January 15, 2009. See page 19.)

	 NARA’s Workers’ Compensation Program (WCP). This audit was performed to
   determine whether management controls were efficient and effective to ensure appropriate
   benefits accrued to injured employees, costs were adequately managed and controlled, and
   Federal Employees Compensation Act (FECA) guidelines were met. The new Director,
   Human Resources Division, was an active supporter of this engagement as she had concerns
   specific to this program. Overall, we found serious deficiencies in NARA’s WCP due to a
   lack of adequate program oversight and effective program management. The lack of a
   centralized, well-managed WCP resulted in the program being vulnerable to fraud, waste
   and abuse. The deficiencies found prevented NARA from meeting the intent of FECA.
   Specifically, (1) long-term case files were not monitored or managed; (2) a formal Return-
   to-Work program was not developed; (3) NARA did not verify compensation benefits
   reported on chargeback cost reports; (4) Continuation of Pay (COP) benefits were not
   consistently monitored; (5) NARA’s WCP lacked comprehensive written policies and

SEMIANNUAL REPORT TO CONGRESS                                                           Page 4
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

    procedures; (6) NARA lacked guidance and training for NARA personnel involved in the
    WCP; (7) case files were both missing and not adequately documented; and (8) employee
    claims were not processed in a timely manner. Additionally, WCP roles and responsibilities
    were not clearly established and assigned. As a result of these weaknesses, we identified
    claimants who were receiving long-term compensation for up to 30 years despite failing to
    meet FECA guidelines for providing medical documentation to support continued program
    eligibility. We identified claimants who were not offered limited duty when capable; and
    when permanent restrictions existed, not recommended for vocational rehabilitation in a
    timely manner. Further, NARA did not verify its workers’ compensation chargeback reports
    or COP payments to ensure claimants were paid accurately. We found several
    overpayments of compensation benefits. The lack of oversight and program management in
    NARA’s WCP contributed to the 83 percent rise in program costs over the last ten years.
    Management, recognizing the need to improve WCP oversight and program management,
    initiated discussions and corrective measures during the course of this audit. We made six
    recommendations, with which management agreed. (Audit Report #09-10, dated March 6,
    2009. See page 19.)

	 NARA’s Fiscal Year 2008 Financial Statements. Clifton Gunderson LLP (CG), a public
   accounting firm, audited NARA’s consolidated balance sheets as of September 30, 2008 and
   2007, and the related statements of net cost, changes in net position, financing, and the
   combined statement of budgetary resources for the years then ended. CG issued NARA an
   unqualified opinion on NARA’s FY 2008 and 2007 financial statements. This is the third
   year in a row NARA received an unqualified opinion. For FY 2008, CG did report one
   significant deficiency in internal control over financial reporting in the area of Information
   Technology resulting in 13 recommendations, which if implemented, should correct the
   matters reported. CG disclosed no material weaknesses and no instances of noncompliance
   with any provisions of the laws and regulations they reviewed. Management concurred with
   the recommendations. (Audit Report #09-02, dated December 4, 2008. See page 20.)




SEMIANNUAL REPORT TO CONGRESS                                                            Page 5
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

Management Letters
	 Award Fee Program for the Electronic Records Archives Development Contract.
   During the period, we notified the Acting Archivist that the ERA development contract
   award fee program was not being managed or functioning in an efficient and effective
   manner. The contractor’s award fees were determined through a process with significant
   deviation from the award fee plan, but without following proper modification
   procedures. Thus, the award fees paid to the contractor did not comply with any
   identified process. This resulted in a lack of accountability and transparency over the
   distribution of government funds to the contractor; and in this particular case, it both
   changed the incentives provided to the contractor and allowed an inappropriate windfall.
   (Management Letter #09-08, dated January 15, 2009.)

	 Management of Classified Information at the Washington National Records Center.
   The OIG advised the Acting Archivist of unacceptable and potentially dangerous classified
   records management and storage practices at the Washington National Records Center
   (WNRC) in Suitland, Maryland. We outlined and described in this management letter some
   of the ongoing failures we discovered at WNRC to protect some of the most sensitive
   information produced by the Federal Government, including the fact that a substantial
   number of classified holdings are unaccounted for. During the course of our ongoing
   investigation into missing classified material at WNRC, a number of other security issues
   became apparent. Based on preliminary findings, we have learned: (a) as of January 2009
   there was no comprehensive and thorough Standard Operating Procedures manual for the
   vault at WNRC; (b) there is no coordination or consistency among all NARA records
   centers holding classified material; (c) there is co-mingling of classified with unclassified
   records at WNRC; and (d) the aforementioned issues, as well as others not detailed herein,
   will likely be exacerbated with the ongoing arrival of some 5,000 boxes of classified
   material from another NARA facility. While recent efforts by management to resolve
   WNRC’s ongoing issues are and should be applauded, a fundamental and paradigm shift in
   how WNRC operates is necessary. Such a shift should incorporate new policy, new
   personnel, new facilities, and a new mindset. Necessary resources and related funding
   should be quantified and both short- and long-term strategies defined and presented to
   appropriate entities to include the Congress and the Executive Branch. (Management Letter
   #OI-09-01, dated January 9, 2009.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 6
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

Inspector General’s Concerns
In the prior reporting period we used this space to elaborate upon a question resonating within
our office specific to the Electronic Records Archives (ERA) program - exactly what will the
functionality of ERA be when the full operating capability date, as defined by NARA, is
realized? On March 31, 2009 Chairman Jose Serrano of the House Subcommittee on Financial
Services and General Government wrote to the Acting Archivist addressing NARA’s FY 2009
ERA expenditure plan. In the letter Congressman Serrano stated the following:

    …the Committee is concerned that the “Full Operating Capability” of ERA remains
    unidentified. This issue was also cited as a key concern of the NARA Office of Inspector
    General in its most recent Semiannual Report to Congress. … It would be most helpful
    for the Committee to have more precise and concrete details as to the expected overall
    functionality for ERA, specifically clarity on what this entire project is intended to do or
    provide when it has achieved “Full Operating Capability,” as well as the anticipated
    date by which such Full Operating Capability will be reached.

All stakeholders (including the OIG staff) seek clear and reliable information specific to the
ERA program, as we as American citizens rely upon NARA to preserve, protect and make
readily available, as appropriate, the Federal records of this nation. The ERA program was
conceived with this primary goal in mind. Our concern is that the clarity of mission has been
impeded by program realities (e.g., delays, reductions in core functionality requirements,
identified technical deficiencies, etc.) as have been defined in numerous published OIG reports.
In the coming reporting period we look forward to NARA’s response to the congressional
inquiry and will use our available resources to support NARA in its ongoing efforts to meet a
vital challenge of our time.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 7
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

                                       Investigations

During this reporting period, the Office of Investigations (OI) opened 15 investigations, closed
nine investigations, and recovered 21 records. The OI also received 57 complaints and closed
46 complaints. Additionally, the OI conducted joint investigations with the Federal Protective
Service, the U.S. Secret Service, the FBI, the Atlanta Police Department, the Metro D.C. Police
Department, the CIA, the Department of State, U.S. Army CID, the U.S. Marine Corps
Historical Office, and Scotland Yard, as well as the Offices of Inspectors General at the General
Services Administration, the U.S. Postal Service, the Veterans Administration, and the Office of
Personnel Management. At the close of the period, there remained 30 open complaints and 35
open investigations.

The Office of Investigations completed investigations in a variety of areas including the
following:

      Lost/Stolen Presidential Records
      Child Pornography
      Lost/Stolen Military Records
      Workers Comp Fraud
      Inappropriate Conduct
      Transit Check Fraud
      Forgery and Improper Access to Veterans Records
      Real Property Procurement Fraud

The Office of Investigations is presently staffed with four law enforcement 1811 series Special
Agents, an investigative archivist, a computer forensic analyst, and an Assistant Inspector
General for Investigations. This team provides investigative coverage to a 3,000-plus, 44-
facility, nationwide agency that includes the Presidential Library system. This broad-based area
of operations presents a demanding investigative challenge to provide real-time coverage when
multiple incidents occur requiring rapid response. The addition of two investigators budgeted
for FY 2010 will enhance the office’s ability to conduct complex and high-profile
investigations, as well as to begin performing proactive investigative activity in a timely and
efficient manner in order to better support our statutory mission.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 8
October 1, 2008 to March 31, 2009
EXECUTIVE SUMMARY

                                Management Assistance
	 Assisted NARA’s Facility Staffs’ efforts to revise the business process for property
   accountability. The OIG attended working meetings with NARA’s contractor charged with
   writing the new business process, reviewed draft policy and guidance documents, and
   provided input and feedback.

	 Provided assistance to the Chief Information Officer’s (CIO’s) office on implementation of
   new contingency planning and contingency plan testing policy. In 2007, an independent
   assessment of the IT security program determined that NARA’s IT security policy and
   supporting procedures were weak, incomplete, and too dispersed to be effective. As a result,
   the Archivist identified IT Security as a material weakness under the Federal Managers’
   Financial Integrity Act reporting process in FY 2007 and FY 2008. CIO officials drafted a
   new Contingency Planning policy and requested our assistance in outlining adequate testing
   guidance to provide to the system owners conducting the annual contingency plan tests. We
   met with CIO officials on several occasions to discuss the changes and provided comments
   on the draft policy to ensure mandatory requirements established by the National Institute of
   Standards and Technology were included.

	 Served on a discussion panel at the Small Agency Counsel’s annual executive retreat
   concerning the implementation of the IG Reform Act of 2008.

	 Referred 16 cases from the Archival Recovery Team to the Office of General Counsel
   pursuant to NARA Directive 1462.

	 Provided comments to several draft agency directives, such as Draft Directive NARA 1611,
   Loans of Archival Holdings to Federal Originators, where our comments focused on security
   aspects and discussed OIG notification and the proposed breadth of an exemption for lender
   liability.

	 Ensured a more open and accountable government by responding to Freedom of Information
   Act requests pertaining to OIG records.

	 Worked with NARA’s IT team to develop and implement an online tool for the IG website
   to allow NARA contractors to report over-billing or crimes, fraud, waste, and abuse in
   accordance with new provisions in the Federal Acquisitions Regulation.

	 Referred a complaint to NARA’s general counsel that NARA’s then-current processes may
   have been violating requirements on agency printing. Those processes were subsequently
   changed.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 9
October 1, 2008 to March 31, 2009
INTRODUCTION

       About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by
safeguarding and preserving the records of our Government, ensuring the people can discover,
use, and learn from this documentary heritage. Further, the agency ensures continuing access to
the essential documentation of the rights of American citizens and the actions of their
government; and supports democracy, promotes civic education, and facilitates historical
understanding of our national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps
citizens hold them accountable. It ensures continuing access to essential evidence documenting
the rights of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 30 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains hundreds of thousands of
artifact items and over 5.5 billion logical data records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2008, NARA had 37.8
million online visits in addition to hosting three million traditional museum visitors, all while
responding to 1.2 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In FY 2009, NARA was appropriated an annual budget of approximately $459.2 million and
2,923 (estimated) Full-time Equivalents (FTEs), including appropriations of $330 million for
operations, $67 million for the Electronic Records Archives (ERA) program, $50.7 million for
repairs and restorations of facilities, and $11.2 million for grants. NARA operates 44 facilities
nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                              Page 10
October 1, 2008 to March 31, 2009
INTRODUCTION

                 About the Office of Inspector General (OIG)

The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items in our holdings, while
safely providing the American people with ready access to essential evidence of their rights and
the actions of their government. We accomplish this by providing high-quality, objective audits
and investigations; and serving as an independent, internal advocate for economy, efficiency,
and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act
of 2008 establishes the OIG’s independent role and general responsibilities. The Inspector
General reports to both the Archivist of the United States and the Congress. The OIG evaluates
NARA’s performance, makes recommendations for improvements, and follows up to ensure
economical, efficient, and effective operations and compliance with laws, policies, and
regulations. In particular, the OIG:

	 assesses the effectiveness, efficiency, and economy of NARA programs and operations

	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies

	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

	 investigates and recommends legal and management actions to correct fraud, waste, abuse,
   or mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency,
helping ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
The FY 2009 OIG budget is approximately $2,932,000 for operations, and authorizes 20 full-
time equivalent employees (FTEs). At the beginning of the current period the OIG had 16 FTEs
in the office. During the period the OIG advertised several positions and hired one special
agent, but at the close of the period there were three vacancies to fill: two auditor positions and a
special agent position. At full staffing, the OIG will have: one Inspector General, one support
staff, ten FTEs devoted to audits, seven FTEs devoted to investigations, and a counsel to the
Inspector General.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 11
October 1, 2008 to March 31, 2009
ACTIVITIES

             Involvement in the Inspector General Community

CIGIE Investigations Committee
The IG served as a member of the Counsel of Inspector Generals on Integrity and Efficiency’s
Investigations Committee. The mission of the Investigations Committee is to advise the IG
community on issues involving investigative functions, establishing investigative guidelines, and
promoting best practices. The Investigations Committee relies on its Investigations Advisory
Subcommittee to assist it in these efforts. The goal, therefore, is to continuously enhance
professionalism within our investigator community.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel is an active participant in meetings of the CCIG, and communicated regularly
with fellow members. In these meeting multiple topics were raised, discussed, and addressed
including the formation and operation of the new Counsel of Inspector Generals on Integrity and
Efficiency, new Freedom of Information Act policies, interpreting various statutes and
regulations, OIG PII policies, gift-giving ethics within offices, and coordinating information
sharing across agencies.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.

Recruiting
The OIG counsel delivered a presentation on working in a Federal OIG office at a law school in
New England. Attended by a variety of students, this speech helped expose the next generation
of potential public servants to the IG community and the work which we do.

The IG Reform Act of 2008
The IG and OIG counsel served in a working group of IG officials developing proposed
protocols for addressing some of the administrative provisions affecting IG offices of designated
federal entities in the IG Reform Act of 2008.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 12
October 1, 2008 to March 31, 2009
ACTIVITIES

                          Response to Congressional Items

Open Audit Recommendations
The Chairman of the Committee on Oversight and Government Reform asked for an update on a
previous request for statistical information on audit recommendations issued from 2001 through
2008, with specific questions about recommendations relating to monetary benefits which remain
open. The OIG responded that the overwhelming focus of our audit efforts has been to improve
NARA’s operational effectiveness and efficiency and enhance physical, environmental, and
information technology security. Out of 488 recommendations made in that timeframe, there are
170 still open, and none of the open recommendations are older than FY 2005. Of those
remaining open recommendations, only one relates to potential monetary benefits.

Controls over Presidential Library Textual Records
As a result of a congressional request received from United States Senator Charles Grassley’s
office, we conducted a multifaceted audit of the actions taken by Presidential libraries to protect
and preserve Presidential collections. This audit revealed the controls over Presidential library
textual records, in general, appear to be adequate and properly functioning. However, we found
controls can be improved over a subset of records known as Specially Protected Records (SPRs).
The records are subject to more stringent controls because they are deemed highly valuable and
vulnerable. Specifically, (a) Presidential libraries are not in compliance with several NARA
requirements concerning the security and handling of SPRs; (b) the Security Management
Branch (NASS) has not inspected/certified SPR storage areas, and; (c) current guidance is not
adequate for ensuring accountability of SPRs at Presidential libraries via sampling. We made
four recommendations for improvement and management concurred with all the
recommendations. (Audit Report #09-01, dated January 14, 2009. See page 18.)




SEMIANNUAL REPORT TO CONGRESS                                                              Page 13
October 1, 2008 to March 31, 2009
AUDITS

                                                  Overview


Overview
This period, we issued:

     seven final audit reports, 

     one audit memorandum,

     two management letters. 1


We completed fieldwork on the following assignments:

    	 an audit of NARA’s Change Management Process to determine if the agency
       appropriately authorizes, documents, tests, and controls changes to its information
       systems,

    	 an audit of the Electronic Records Archives program status to evaluate and assess NARA
       and contractor efforts associated with developing the Electronic Records Archives.

We also continued work on the following assignments:

    	 an audit of NARA’s Processing of Military Personnel Records Requests to determine
       whether the process is sufficient, and management controls are adequate, to properly
       safeguard veterans’ information,

    	 progress reviews of the Electronic Records Archives development to report progress to
       ERA stakeholders including achievements, challenges, risks, and concerns,

    	 an audit of NARA’s Vehicle Fleet Management to determine if fleet vehicles are 

       adequately utilized and fleet resources are properly controlled, 


    	 an audit of NARA’s Work-at-Home System (WAHS) to determine whether the WAHS
       efficiently and effectively meets the requirements of OMB memorandum M-06-16,
       Protection of Sensitive Agency Information, and was developed in accordance with
       NARA requirements.




1 Management letters are used to address issues, not resulting from an audit, which need to be quickly brought to the
Archivist’s or management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                              Page 14
October 1, 2008 to March 31, 2009
AUDITS

                                    Audit Summaries

OIG Monitoring of the Electronic Records Archives Program Status
The purpose of this report was to advise the Acting Archivist of the United States of the current
status of the Electronic Records Archives (ERA) Program. The ERA, a major information
system, is being designed to store and manage NARA’s electronic records holdings and to
manage the lifecycle of paper records and other holdings. It will manage the entire lifecycle of
temporary and permanent electronic records from ingestion through preservation and
dissemination to customers. The system must perform its functions free from dependence on any
specific hardware or software. Due to schedule delays, the developmental effort is proceeding
on two separate tracks: the ERA Base System and the Executive Office of the President (EOP)
System. The EOP System will provide ingest, search, and retrieval capabilities for the records of
the George W. Bush Administration, while the Base ERA System will provide basic electronic
records management capability for NARA legacy data and records and for current transactions of
other Federal agencies.

We are monitoring, on a continuing basis, government and contractor personnel efforts
associated with developing the ERA. This initiative focuses on assessing whether (a) the ERA
Program is meeting cost and schedule requirements, and (b) NARA and contractor management
officials are taking timely action to correct any actual or potential problems with program
performance. Periodically, we provide management with reports on program status.

We reported that, in our opinion, because of previous funding issues and schedule delays, it is
not likely that the ERA System will achieve Full Operating Capability (FOC) as originally
envisioned, that is, the ERA will not have all the required functionality when the development
contract ends in March 2012. As a result, additional funding will be needed to complete the
program. (Audit Report #09-03, dated January 6, 2009)

OIG Monitoring of the Executive Office of the President (EOP) System
The audit was initiated to advise the Archivist of the current status of the EOP system. As noted
above, due to schedule delays the developmental effort of ERA is proceeding on two separate
tracks: the ERA Base System and the Executive Office of the President (EOP) System. The EOP
System will provide ingest, search, and retrieval capabilities for the records of the George W.
Bush administration. As part of our on-going effort to review the development and
implementation of the ERA system, we reviewed the EOP system concerning sensitive but
unclassified electronic data to be transferred to NARA from the George W. Bush administration.

Our review of the EOP System development effort revealed that due to the expected volume of
electronic records from the Bush administration, and the possibility of receiving these records in
unknown or incompatible formats, NARA will not be able to rely solely on the EOP System to
comply with the Presidential Records Act, and will incur additional costs.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 15
October 1, 2008 to March 31, 2009
AUDITS

While the EOP System achieved Initial Operating Capability on December 5, 2008, this does not
mean the system currently has the capability to ingest, search, and access all electronic records
from the White House. This conclusion is supported by the fact that the Contingency Plan for
Bush Presidential electronic records has been invoked for two proprietary systems. It is
estimated the Bush Administration’s electronic records will total about 100 terabytes as
compared to the two terabytes of data received from the Clinton Administration. Any records
that cannot be ingested in a way supporting search and retrieval immediately after the change in
administration will affect the time and cost for NARA to comply with the Presidential Records
Act.

During testing of the ingest function, the main archival storage component for the EOP
experienced stability problems resulting in significant slowdowns in the system’s ability to ingest
records. The vendor issued software patches which appear to have corrected the stability
problems in the test environment. However, there are two performance requirements that may
not be met relating to the amount of time to perform ingest and search functions. Results from
laboratory tests of these functions in October 2008 indicate they fall short of the performance
requirements. The vendor is working on reducing the response times in their test lab. At this
time, it is unknown how the system will respond in a production environment to the full volume
of White House electronic records. (Audit Report #09-06, dated January 13, 2009.)

The Omission of Classified Electronic Records from the EOP System
This audit focused on assessing the current status of the ERA program and determining whether
the program (1) is meeting cost and schedule requirements, and (2) will be able to cost-
effectively meet future target implementation dates. Specifically, we reviewed the handling of
classified electronic records from the George W. Bush administration by the ERA’s EOP system.

During the course of our review, NARA removed classified records from the scope of the
requirements for the EOP System. Therefore, classified records from the George W. Bush
administration are not going to be included in the EOP System. In our opinion, this will
negatively affect the cost and implementation schedule of the ERA project. ERA was to
enhance NARA’s ability to comply with the requirements of the Presidential Records Act by
providing rapid ingestion of data in a permanent, secure environment and eliminating the need to
migrate the data to new or updated systems in the future. Excluding classified records from the
EOP System raises the following concerns:

              What are the associated costs to maintain classified electronic records in a non-
               ERA system?
              What are the additional costs needed to develop and implement an EOP National
               Security System (NSS) in the future to handle classified records?
              How will the cost and schedule of the overall ERA development effort be
               impacted?

NARA officials stated the reasons for not including classified records in the EOP System were
the lack of funding and the additional level of effort needed to certify and accredit a system with
classified records.

SEMIANNUAL REPORT TO CONGRESS                                                              Page 16
October 1, 2008 to March 31, 2009
AUDITS

NARA requested funding to ensure ERA has the capability to ingest, store, preserve, and manage
classified and unclassified electronic records in an appropriate and secure environment from the
Bush administration. However, a modification was issued to the ERA contract that estimated the
total cost of the EOP System at $38.9 million and states the EOP System acquired under this
modification does not include scope for an EOP National Security System (NSS). The NSS
would handle classified electronic records from the Bush administration. The modification
further states that if an EOP NSS is required by the Government in the future, additional cost will
be required to complete the procurement, installation, configuration, testing, and deployment.
When asked how the classified White House electronic records would be handled, a NARA
official told us the majority of these records would be transferred to NARA on USB drives and a
stand-alone server. Further, NARA will have to license the software necessary to search this
data. (Audit Report #09-07, dated January 16, 2009.)

NARA’s Transition to Internet Protocol Version 6 (IPv6)

An Internet protocol (IP) provides the addressing mechanism defining how and where
information such as text, voice, and video move across interconnected networks. Internet
protocol version 4 (IPv4), which is widely used today, may not be able to accommodate the
increasing number of global users and devices connecting to the Internet. As a result, IP version
6 (IPv6) was developed to increase the amount of available IP address space. Use of both IPv4
and IPv6 is expected to overlap for some time, and the hardware and software infrastructure
needed to support both IPv4 and IPv6 presents a challenge to the Federal Government.

To guide Federal Government agencies in their transition to IPv6, in August 2005, the Office of
Management and Budget (OMB) issued Memorandum M-05-22, “Transition Planning for
Internet Protocol Version 6,” which outlined a transition strategy for agencies to follow and
established the goal for all Federal agency network backbones to support IPv6 by June 30, 2008.

We assessed NARA’s efforts to transition to IPv6. Specifically, we sought to determine whether
NARA was in compliance with the OMB mandate and, if not, to identify what major obstacles or
challenges exist and whether a plan for compliance has been developed. To accomplish our
objective, we determined whether a) NARA tested the scenarios required by OMB and the CIO
Council in their Demonstration Plan; b) NARA adequately planned for the transition; c) whether
NARA officials had taken action to address security risks associated with IPv6; and d) whether
controls were in place to ensure new IT procurements were IPv6 compliant.

We found NARA did not comply with the OMB mandate by not verifying whether the network
backbone is capable of supporting IPv6. Specifically, IPv6 testing on the production
environment did not test NARA’s ability to transport IPv6 traffic through all devices in the core
network and did not test whether NARA could successfully receive and transmit IPv6 traffic
outside NARA’s network. We also found NH officials involved in planning for the transition to
IPv6 have not identified or addressed risks and challenges associated with the transition. In
addition, management controls were not in place to ensure new IT procurements would be IPv6
compliant.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 17
October 1, 2008 to March 31, 2009
AUDITS

We made five audit recommendations which upon implementation would both bring NARA into
compliance with OMB requirements and provide the foundational structure for transition to
IPv6. However, CIO only concurred with one recommendation and did not fully concur with
four of the recommendations. (Audit Report# 09-05, dated March 11, 2009).

Controls over Presidential Library Textual Records
In FY 2007 we conducted an audit of the controls over artifacts at the Presidential libraries.
During the commencement of field work for that audit the OIG received an inquiry from United
States Senator Charles Grassley’s office asking us to conduct an audit of the actions taken by
Presidential libraries in order to protect and preserve Presidential collections. This audit,
focusing on the controls over Presidential library textual records, was conducted to fulfill Senator
Grassley’s request and compliments our previous audit on the controls over Presidential library
artifacts. 2

This audit revealed that controls over Presidential Library textual records, in general, appear to
be adequate and functioning properly. However, we found that controls can be improved over a
subset of records known as Specially Protected Records (SPRs), which are subject to more
stringent controls because they are deemed highly valuable and vulnerable.

Specifically the audit revealed (a) Presidential libraries are not in compliance with several
requirements contained in NARA 1572, Security for NARA Holdings, which provides guidance
concerning the security and handling of SPRs; (b) the Security Management Branch (NASS) has
not inspected/certified SPR storage areas, and; (c) current guidance is not adequate for ensuring
accountability of SPRs at Presidential libraries via sampling. Further, the current level of control
on SPRs proscribed by NARA guidance exposes the SPRs to a level of risk and creates a
situation where libraries may not be able to identify missing individual SPRs. Management has
stated this is an inherent risk which they are willing to accept. Finally, as noted in a previous
OIG audit 3 concerning Specially Protected Records and Artifacts, while libraries have taken
steps to identify SPRs, not all SPR’s have been identified. According to the prior audit, this is an
issue related to resources and competing demands, and one which will not be remedied anytime
soon.

We made four recommendations that, upon adoption, will help NARA to better ensure the safety
and security of Specially Protected Records. Management agreed only to update their regulation
on holdings security, and then evaluate the other recommendations afterwards. (Audit Report
#09-01, dated January 14, 2009.)




2 OIG Audit Report No. 08-01, Audit of the Process of Safeguarding and Accounting for Presidential Library 

Artifacts (October 26, 2007)

3 OIG Audit Report No. 07-01, Audit of Management Controls for Safeguarding NARA’s Specially Protected

Records and Artifacts Stored in Secured Stacks, Vaults, and Safes (October 12, 2006).


SEMIANNUAL REPORT TO CONGRESS                                                                           Page 18
October 1, 2008 to March 31, 2009
AUDITS


Regional Archives Compliance with Procedures for Controlling Specially
Protected Holdings

This audit was undertaken pursuant to audit work conducted by this office of the controls over
Presidential Library (NL) textual records. While performing field work for the Presidential
libraries audit the OIG discovered the regional archives were not in compliance with several
aspects of NARA’s policy on security for NARA holdings, including materials in specially
protected holdings that had been identified as needing special protection. We found regional
archives had not performed the following activities relating to controls over specially protected
holdings, as required by NARA directive: (a) nominated selected staff for background checks
required to access vaults or other specially protected areas (nominations to be sent to NASS); (b)
reported their storage methods, exact container locations, and names of staff with access to
specially protected holdings to NASS, and; (3) performed annual inventories of specially
protected holdings and provided the results to the office head.

As a result of these conditions NR lacks assurance that specially protected holdings are being
controlled in a manner consistent with their value. We made four recommendations that, upon
adoption, will help NARA to better ensure the safety and security of Specially Protected
Records. Management agreed only to update their regulation on holdings security, and then
evaluate the other recommendations afterwards. (Audit Report #09-04, dated January 15, 2009.)

NARA’s Workers’ Compensation Program
The Federal Employees’ Compensation Act (FECA) provides compensation benefits to Federal
civilian employees for disability due to traumatic injury or disease sustained while in the
performance of duty. The FECA program is administered by the Office of Workers’
Compensation Programs (OWCP), a component of the Employment Standards Administration
(ESA) with the United States Department of Labor (DOL).

We audited NARA’s WCP to determine whether management controls were efficient and
effective to ensure that appropriate benefits accrued to injured employees, costs were adequately
managed and controlled, and FECA guidelines were met. Overall, we found serious deficiencies
in NARA’s WCP due to a lack inadequate program oversight and ineffective program
management. The lack of a centralized, well-managed WCP resulted in the program’s
vulnerability to fraud, waste and abuse. The deficiencies found prevented NARA from meeting
the intent of FECA. Specifically we found (1) long-term case files were not monitored/managed;
(2) a formal Return-to-Work program was not developed; (3) NARA did not verify
compensation benefits reported on chargeback cost reports; (4) Continuation of Pay (COP)
benefits were not consistently monitored; (5) NARA’s WCP lacked comprehensive written
policies and procedures; (6) NARA lacked guidance and training for its WCP personnel; (7) case
files were both missing and not adequately documented; and (8) employee claims were not
processed in a timely manner. Additionally, clear assignment of WCP roles and responsibilities
were not established to ensure NARA’s WCP was properly administered.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 19
October 1, 2008 to March 31, 2009
AUDITS

As a result of these weaknesses, we identified claimants who were receiving long-term
compensation for up to 30 years despite failing to meet FECA guidelines for providing medical
documentation to support continued program eligibility. We identified claimants who were not
offered limited duty when capable; and when permanent restrictions existed, were not
recommended for vocational rehabilitation in a timely manner. In addition, NARA did not verify
its workers’ compensation chargeback reports or COP payments to ensure claimants were paid
accurately. We found several overpayments of compensation benefits; in one case an employee
was over paid $35,685.

The lack of oversight and program management given to NARA’s WCP contributed to the 83-
percent rise in program costs over the last ten years. Cognizant management officials attributed
these programmatic failures to an overall lack of oversight by responsible parties in prior years
and the associated decentralization of program responsibility.

Management, recognizing the need to improve WCP oversight and program management,
initiated discussions and corrective measures during the course of this audit. We have made six
recommendations for action necessary to address the findings identified in our audit and to assist
management in improving program stewardship and reducing NARA WCP costs. Management
concurred with the recommendations and initiated corrective action. (Audit Report #09-10,
dated March 6, 2009.)


Audit of NARA’s Fiscal Year 2008 Financial Statements
Clifton Gunderson LLP (CG), an independent public accounting firm, examined and reported on
NARA's consolidated balance sheets as of September 30, 2008 and 2007, and the related
statements of net cost, changes in net position, and combined statement of budgetary resources
for the years then ended.

CG issued an unqualified opinion of the FY 2008 and 2007 financial statements. CG reported
one significant deficiency in internal control over financial reporting in the area of Information
Technology resulting in 13 recommendations, which if implemented, should correct the matters
reported. CG disclosed no material weaknesses and no instances of noncompliance with certain
provisions of laws and regulations. Management concurred with CG’s assessment and agreed to
initiate corrective action.

We monitor CG’s performance of the audit to ensure the audit is conducted in accordance with
the terms of the contract and in compliance with GAO-issued Government Auditing Standards
and other authoritative references, such as OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements. We are involved in the planning, performance, and reporting
phases of the audit through participation in key meetings, discussion of audit issues, and
reviewing of CG’s work papers and reports. Our review disclosed no instances wherein CG did
not comply, in all material respects, with the contract or Government Auditing Standards. (Audit
Report #09-02, dated December 4, 2008.)




SEMIANNUAL REPORT TO CONGRESS                                                             Page 20
October 1, 2008 to March 31, 2009
INVESTIGATIONS

                                Investigations Overview

During this reporting period, the Office of Investigations (OI) opened 15 investigations, closed
nine investigations, and recovered 21 records. The OI also received 57 complaints and closed 46
complaints. Additionally, the OI conducted joint investigations with the Federal Protective
Service, the U.S. Secret Service, the FBI, the Atlanta Police Department, the Metro D.C. Police
Department, the CIA, the Department of State, U.S. Army CID, the U.S. Marine Corps Historical
Office, and Scotland Yard, as well as the Offices of Inspectors General at the General Services
Administration, the U.S. Postal Service, the Veterans Administration, and the Office of
Personnel Management. At the close of the period, there remained 30 open complaints and 35
open investigations.


               Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
A former NARA employee and a former NARA contractor, who are alleged to have stolen
nearly $1 million from NARA, were indicted by a Federal grand jury in the District of Maryland.
Arrest warrants were subsequently issued and executed. Both subjects made their first
appearances in court, and NARA OIG seized two vehicles belonging to the former contractor.

False Claims
A NARA contractor submitted claims for hours worked by unqualified personnel in violation of
the terms of its contract. An Assistant United States Attorney declined the case for criminal
prosecution. A United States civil attorney has accepted the case for civil action. This
investigation is ongoing and remains pending with the U.S. civil attorney.

Personally Identifiable Information on Scrap Laptops
Laptop computers excessed from the National Archives were released to a non-government
contractor without having been appropriately erased. The computers were seized by the OI and
subjected to forensic analysis. This analysis revealed sensitive information from the Information
Security Oversight Office as well as personally identifiable information (PII) for several people.
The OI’s investigation is ongoing.

Misuse of NARA Seal and the Great Seal
A website was using the official NARA Seal without permission from the Archives, as well as
improperly using the Great Seal of the United States. After failing to be responsive to several
letters and telephone calls ordering the removal of the seals from the website, the case was
accepted for prosecution by an Assistant United States Attorney. Subsequently, the seals were
taken down and the prosecution was ultimately dismissed.

Conspiracy to Defraud the Federal Government
A NARA contractor received information technology equipment under false pretenses. This
case has been accepted for prosecution by an Assistant United States Attorney and remains
ongoing.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 21
October 1, 2008 to March 31, 2009
INVESTIGATIONS

Child Pornography
A forensic analysis conducted on a laptop computer improperly excessed from NARA found
evidence of child pornography. The employee who used the computer had left Federal service
and become a Federal contractor at a different agency. The case was referred to the new
agency’s criminal investigative service for action as they deem appropriate.

Conflict of Interest
A NARA employee started a private-sector business providing the identical services for which
he was employed by the Government. These services were provided commercially on
Government time using Government equipment and service priority was given to commercial
clients over Government clients. The case was accepted for prosecution by an Assistant United
States Attorney.

Mishandling of Classified Documents
In 2007, more than 6,000 boxes of classified material stored by NARA were reported as missing
to the OI. After a lengthy internal inventory, many of these materials have been accounted for,
but a remaining 158 boxes of Top Secret and/or Restricted Data materials have not been found.
An investigation to determine the status of this TS/RD material remains ongoing.

                            New Investigation Highlights
Procurement Integrity Act Violation
A NARA employee provided a contract bidder with pre-decisional information allowing the
contractor to gain an advantage over other contractors bidding on the contract. When
confronted, the subject made false statements to investigators regarding the subject’s
involvement in the contract award process. The Antitrust Division at the Department of Justice
declined prosecution, and the case was transferred to an Assistant U.S. Attorney for a
prosecutive, as well as civil action determination.

Making and Using a False Writing
The subject pled guilty to making and using a false writing. The subject knowingly and willfully
forged the name of a military veteran on a Military Record Retrieval Authorization form in order
to obtain private and official United States military records of that serviceman held by NARA at
the National Personnel Records Center (NPRC) in St. Louis, Missouri. The subject was
requesting these documents for a client seeking information about the particular veteran.
Sentencing is set for the next reporting period.

Inappropriate Conduct
The OIG substantiated a NARA employee kissed a coworker without her consent. The subject
also had verbal and physical contact of an inappropriate nature with coworkers that exceeded
generally accepted standards of office decorum by touching NARA staff without consent, and
continuously requesting employees to meet and socialize after-hours despite repeated refusals.
The subject resigned from NARA, and the Department of Justice declined prosecution.


SEMIANNUAL REPORT TO CONGRESS                                                           Page 22
October 1, 2008 to March 31, 2009
INVESTIGATIONS

Transit Authority Check Fraud
The subject, a NARA employee, was receiving transit checks as part of NARA’s Public
Transportation Subsidy Program. Instead of using the checks for public transportation, the
subject sold them for cash. The case was declined for prosecution by Federal and local
prosecutors, and the subject resigned his position in lieu of termination.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold, equipment in
violation of the contract terms. The case has been accepted for prosecution by an Assistant
United States Attorney for mail and wire fraud, as well as false claims. The investigation
remains ongoing.

Lost/Stolen Presidential Records
Original Clinton Presidential records were lost after a request for them was processed at the
William J. Clinton Presidential Library. This investigation was not resolved. While violations
of NARA policy related to the security of NARA holdings were substantiated, the missing
folders were not recovered. Administrative action remains pending.

Falsification of Military Service Records
The subject falsified his military service record and then sent the record through the United
States Postal Service under cover of a forged letter and envelope bearing NARA’s seals and
markings. The subject also provided false statements concerning his prior military service on an
official Federal employment application and was subsequently employed by the Department of
the Army. An Assistant United States Attorney has accepted this case for prosecution.

Intrusion at Presidential Library
An unidentified intruder gained unlawful entry to the Jimmy Carter Library and Museum in
Atlanta, Georgia, and three bicycles were later found to be missing—including one donated to
Former President Carter and a second donated to Former First Lady Rosalyn Carter. A security
guard did not appropriately respond during the incident. The OIG joined with the U.S. Secret
Service and the Atlanta Police Department in this investigation, which remains ongoing.

Privacy Act/Release of Personally Identifiable Information
NARA returned defective computer drives to the manufacturer for maintenance and/or
replacement without effectively wiping the drives of Privacy Act information and personally
identifiable information. The drives could not be recovered from the manufacturer, and the
investigation is ongoing.

Hit and Run of Government Vehicle
A NARA vehicle was struck by another vehicle, which left the scene immediately. A passenger
in the NARA vehicle saw the license plate number of the subject vehicle and reported the
number to the OIG. The OIG worked with Metro D.C. Police Department to locate and contact
the subject who then admitted to fleeing the scene of an accident. The subject was issued a
citation and ordered to pay for damages to the NARA vehicle.

SEMIANNUAL REPORT TO CONGRESS                                                            Page 23
October 1, 2008 to March 31, 2009
INVESTIGATIONS

                      Other Office of Investigation Activity

Archival Recovery Team (ART)
During this period, the Archival Recovery Team fielded 24 complaints and opened one
investigation. Twenty-two complaints and three investigations were closed. In addition, 16 non-
criminal ART cases were referred to NARA for a recovery determination. At the close of the
period, 16 ART complaints and six ART investigations remained open. The ART successfully
recovered 21 records during the period.

As part of the ART’s outreach program, Office of Investigations staff attended the following
shows to educate the public about the NARA OIG and ART:

   	 In October 2008, ART members and OIG staff attended and displayed at the Fall
      Gettysburg Show in Gettysburg, Pennsylvania. The show features dealers in Civil War,
      World War I, and World War II memorabilia.

   	 In November 2008, ART members attended and displayed at the 28th Annual Capitol of
      the Confederacy Civil War Show in Richmond, Virginia.

   	 In December 2008, ART members attended and displayed at the 22nd Annual Middle
      Tennessee Civil War Show in Nashville, Tennessee.

   	 In December 2008, ART members attended the Third Annual Washington Historical
      Autograph and Manuscript Show in Rosslyn, Virginia.

   	 In March 2009, ART members and OIG staff attended the Baltimore Antique Arms Show
      in Timonium, Maryland.

   	 In March 2009, ART members and OIG staff attended the Militaria Show in Pikesville,
      Maryland.

A variety of significant historical documents can be viewed on the ART’s missing documents
web page located at http://www.archives.gov/research/recover/missing-documents.html.

Computer Crimes Unit
During the reporting period, the computer crimes unit provided digital forensic support
to numerous criminal investigations. Specifically, the computer forensic examiner participated
in the execution of a search warrant that resulted in the seizure of several computer
workstations, network servers, and other digital evidence. In addition, the computer forensic
examiner extracted video and audio footage obtained during undercover operations, examined
restored email, and performed the forensic examination of digital evidence including internal
hard drives, external hard drives, and USB flash drives. Further, the computer forensic examiner
enhanced the capability of the NARA OIG computer lab by obtaining equipment and software to
support the forensic examination of cell phones and personal digital devices.

SEMIANNUAL REPORT TO CONGRESS                                                            Page 24
October 1, 2008 to March 31, 2009
INVESTIGATIONS

                                        OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

      By telephone
       Washington, DC, Metro area: (301) 837-3500 

       Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 


      By mail
       NARA OIG Hotline
       P.O. Box 1821 

       Hyattsville, MD 20788-0821 


      By e-mail
       oig.hotline@nara.gov

      By online referral form
       http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition.

Where appropriate, referrals are made to the OIG audit staff, NARA management, or external
authorities. Hotline contacts are captured as complaints in the Office of Investigations. The
following table summarizes complaints received and Hotline activity for this reporting period:

                    Complaints received                                     57
                    Complaints closed pending response from NARA             9
                    Complaints closed final                                 37
                    Complaints open to Investigations                       10




SEMIANNUAL REPORT TO CONGRESS                                                             Page 25

October 1, 2008 to March 31, 2009

TOP TEN MANAGEMENT CHALLENGES

                                         Overview

Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

1.      Electronic Records Archives (ERA)
NARA’s challenge is to build a system accommodating past, present, and future formats of
electronic records. However, the ERA program has experienced delivery delays, budgeting
problems, and contractor staffing problems. Initial Operating Capacity (IOC) for the ERA
Program was delayed from September 2007 until June 2008, and the program functions at IOC
were reduced as well. Further, due to delays, the system component to handle all White House
records (the EOP System) was segregated out and pursued down a separate line of programming,
and is not able to handle any classified records. Currently NARA staff is not able to clearly
define what the ERA system will be able to do or what functions it will provide to NARA when
the program reaches Full Operating Capability, currently predicted in 2012. The success of this
mission-critical program is uncertain. The challenge will be to deliver and maintain a functional
ERA system that will preserve and provide access to electronic records for as long as needed.

2.      Improving Records Management
Part of NARA’s mission is ensuring Federal officials and the American public have continuing
access to the records of our government. NARA must work with Federal agencies to ensure
scheduling, appraisal, and accessioning processes are effective and efficient; allowing NARA to
meet its strategic goal of ensuring access to these records as soon as legally possible. The key
challenge is how best to accomplish this component of our overall mission and identify and react
to agencies with critical records management needs, especially in an environment in which an
increasing amount of records are electronic as opposed to textual.

NARA also directs the Electronic Records Management (ERM) initiative, one of 24
Government-wide initiatives. The ERM initiative will provide guidance to agencies in managing
and transferring to NARA, in an increasing variety of data types and formats, their permanent
electronic records. In June 2008, GAO recommended NARA develop and implement an
approach to provide oversight of agency records management programs that provides adequate
assurance agencies are following NARA guidance. NARA and its Government partners are
challenged with determining how to manage electronic records and how to make ERM and e-
Government work more effectively.

3.     Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers
Financial Integrity Act reporting process in FY 2007 and FY 2008. NARA’s Office of

SEMIANNUAL REPORT TO CONGRESS                                                            Page 26
October 1, 2008 to March 31, 2009
TOP TEN MANAGEMENT CHALLENGES

Information Services (NH) conducted an independent assessment of the IT security program
using the Program Review for Information Security Management Assistance (PRISMA)
methodology developed by the National Institute for Standards and Technology (NIST) in FY
2007. The assessment stated NARA’s policy and supporting procedures for IT security were
weak, incomplete, and too dispersed to be effective.

Information technology security continues to present major challenges for NARA. The
confidentiality, integrity and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. Each year, the risks and challenges to
IT security continue to evolve. NARA must ensure the security of its data and systems or risk
undermining the agency’s credibility and ability to carry out its mission.

4.     Expanding Public Access to Records
In a democracy, the records of its archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Of critical importance is NARA’s role in ensuring the
timeliness and integrity of the declassification process of classified material held at NARA.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information on-line, will be to provide such access to records created digitally (i.e.,
“born digital”) and to identify those textual records most in demand so they can be digitized and
made available electronically.

5.     Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure its own facilities, as well as those used by other Federal agencies, are in compliance with
these regulations.

6.     Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow
older daily and are degrading. The Archivist previously identified preservation as a material
weakness under the Federal Managers’ Financial Integrity Act reporting process. However, in
FY 2006, preservation was downgraded to a reportable condition, and it is currently being
monitored as a significant deficiency. The OIG strongly disagrees with this. Preserving and
providing access to records is a fundamental element of NARA’s duties to the country. NARA
cannot provide access to records needs unless it can preserve them for as long as needed. The
current backlog of records needing preservation is growing. NARA is challenged to address this
backlog and future preservation needs. The challenge of ensuring NARA facilities meet
environmental standards for preserving records (see OIG Challenge #5) also plays a critical role
in the preservation of Federal records.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 27
October 1, 2008 to March 31, 2009
TOP TEN MANAGEMENT CHALLENGES


7.     Improving Project Management
Effective project management is essential to obtaining the right equipment and systems to
accomplish NARA’s mission. Complex and high-dollar contracts require multiple program
managers, often with varying types of expertise. NARA is challenged with planning projects,
developing adequately defined requirements, analyzing and testing to support acquisition and
deployment of the systems, and oversight to ensure effective or efficient results within costs.
These projects must be managed and tracked to ensure cost, schedule and performance goals
are met.

8.     Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA
reporting process. NARA must maintain adequate levels of security to ensure the safety and
integrity of persons and holdings within our facilities. This is especially critical in light of the
security realities facing this nation and the risks that our holdings may be pilfered, defaced, or
destroyed by fire or other man-made and natural disasters.

9.     Contract Management and Administration
The GAO has identified Commercial Services Management (CMS) as a Government-wide
initiative. The CMS initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and improve the management and oversight of Federal contractors. NARA is also
challenged with reviewing contract methods to ensure a variety of procurement techniques are
used and used properly in accordance with the Federal Acquisition Regulations.

10.     Strengthening Human Capital
The GAO has identified human capital as a Government-wide high risk. NARA’s challenge is to
adequately assess its human capital needs in order to effectively recruit, retain, and train people
with the technological understanding and content knowledge that NARA needs for future
success. In OPM’s 2008 Federal Human Capital Survey, NARA ranked 33 out of 37 agencies in
the Leadership and Knowledge Management Index, and 32 out of 37 agencies in the Job
Satisfaction Index. Further, in November 2007, OPM reported NARA had not established a
formal human capital plan addressing the alignment of human resource policies and programs to
organizational mission, strategic goals, and performance measures. Continuity of leadership
within NARA is not ensured because it has not developed a comprehensive succession program
providing training to employees to develop them as managers.




SEMIANNUAL REPORT TO CONGRESS                                                                  Page 28
October 1, 2008 to March 31, 2009
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS 

          AMENDED, AND OTHER LAWS 

REQUIREMENT            SUBJECT                                                  PAGE(s)

Section 4(a)(2)        Review of legislation and regulations                    12

Section 5(a)(1)        Significant problems, abuses, and deficiencies           6, 15-23

Section 5(a)(2)        Significant recommendations for corrective action        15-20

Section 5(a)(3)        Prior significant recommendations unimplemented          34

Section 5(a)(4)        Summary of prosecutorial referrals                  31

Section 5(a)(5)        Information or assistance refused                        34

Section 5(a)(6)        List of reports issued                                   32

Section 5(a)(7)        Summaries of significant reports                         15-20

Section 5(a)(8)        Audit Reports—Questioned costs                           32, 33

Section 5(a)(9)        Audits Reports—Funds put to better use                   32, 34

Section 5(a)(10)       Prior audit reports unresolved                           34

Section 5(a)(11)       Significant revised management decisions                 34

Section 5(a)(12)       Significant revised management decisions                 34
                       with which the OIG disagreed

P.L. 110-181           Annex of completed contract audit reports                33




SEMIANNUAL REPORT TO CONGRESS                                                            Page 29
October 1, 2008 to March 31, 2009
REPORTING REQUIREMENTS

                   STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                       57
        Investigations pending at beginning of reporting period                         29
        Investigations opened this reporting period                                     15
        Investigations closed this reporting period                                     9
        Investigations carried forward this reporting period                            35
Categories of Closed Investigations
        Fraud                                                                           3
        Conflict of Interest                                                            0
        Contracting Irregularities                                                      0
        Misconduct                                                                      0
        Larceny (theft)                                                                 3
        Other                                                                           3
Investigative Results
        Cases referred – accepted for prosecution                                       2
        Cases referred – declined for prosecution                                       4
        Cases referred – pending prosecutive decision                                   1
        Arrest                                                                          0
        Indictments and informations                                                    1
        Convictions                                                                     1
        Fines, restitutions, judgments, and other civil and administrative recoveries   0
        NARA holdings recovered                                                         21
Administrative Remedies
        Employee(s) terminated                                                          0
        Employee(s) resigned in lieu of termination                                     3
        Employee(s) suspended                                                           2
        Employee(s) given letter of reprimand or warnings/counseled                     3
        Employee(s) taking a reduction in grade in lieu of administrative action        0
        Contractor (s) removed                                                          1




SEMIANNUAL REPORT TO CONGRESS                                                           Page 30
October 1, 2008 to March 31, 2009
REPORTING REQUIREMENTS

                         SUMMARY OF PROSECUTORIAL REFERRALS
                                            Requirement 5(a)(4)
Accepted for Prosecution
Falsification of Military Service Records
Subject falsified his military service record and then sent the record through the United States Postal
Service under cover of a forged cover letter and envelope bearing NARA’s seal and markings. The
subject created the false envelope and cover letter to legitimize the authenticity of his altered military
service record. The subject also provided false statements concerning his prior military service on an
official Federal employment application and was subsequently employed by the Department of the Army
by way of the falsified employment application. An Assistant United States Attorney has accepted this
case for prosecution.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold, equipment in violation of
the contract terms. The case has been accepted for prosecution by an Assistant United States Attorney for
mail and wire fraud, as well as false claims. The investigation remains ongoing.

Declined for Prosecution
Transit Authority Check Fraud
The subject, a NARA employee, was receiving transit checks as part of NARA’s Public Transportation
Subsidy Program. Instead of using the checks for public transportation, the subject sold them for cash.
The case was declined for prosecution by Federal and local prosecutors, and the subject resigned his
position in lieu of termination.

Misuse of NARA Seal and the Great Seal
A website was using the official NARA Seal without permission from the National Archives, as well as
improperly using the Great Seal of the United States. After failing to be responsive to several letters and
phone calls ordering the removal of the seals from the website, the case was accepted for prosecution by
an Assistant United States Attorney. Subsequently, the seals were taken down and prosecution was
ultimately dismissed.

Theft of Funds
The subject used a Presidential Library Foundation’s credit card to purchase $70,000 to $140,000 of
personal items and services. The subject’s family reimbursed the Government, and due to the subject’s
mental health, the case was declined for prosecution.

Procurement Integrity Act Violation
A NARA employee provided a contract bidder with pre-decisional information allowing the contractor to
gain a significant advantage over other contractors bidding on the contract. When confronted, the subject
made false st atements to investigators regarding th eir invol vement in the contr act award process. The
Antitrust Division at the Department of Justice decl ined prosecution, and the case was tran sferred to an
Assistant U.S. Attorney for a prosecutive, as well as civil action determination. (See below.)

Pending Prosecutorial Determination
Procurement Integrity Act Violation
A NARA employee provided a contract bidder with pre-decisional information allowing the contractor to
gain a significant advantage over other contractors bidding on the contract. When confronted, the subject
made false statements to investigators regarding their involvement in the contract award process. The
Antitrust Division at the Department of Justice declined prosecution, and the case was transferred to an
Assistant U.S. Attorney for a prosecutive, as well as civil action determination. (See above.)


SEMIANNUAL REPORT TO CONGRESS                                                                      Page 31
October 1, 2008 to March 31, 2009
        REPORTING REQUIREMENTS

                                        LIST OF REPORTS ISSUED
                                                   Requirement 5(a)(6)

Report      Title                                   Date          Questioned   Unsupported   Funds Put to
No.                                                               Costs        Costs         Better Use
09-01       Audit of the Controls over
            Presidential Library Textual             03/11/2009          0          0             0
            Records
09-02       Audit of NARA’s Fiscal Year 2008
                                                     12/04/2008          0          0             0
            Financial Statements
09-03       Audit of NARA’s OIG Monitoring
            of the Electronic Records Archives       01/06/2009          0          0             0
            Program Status
09-04       Regional Archives Compliance with
            Procedures for Controlling Specially     01/15/2009          0          0             0
            Protected Holdings
09-05       Audit of NARA’s Transition to
                                                     03/11/2009          0          0             0
            Internet Protocol Version 6
09-06       Audit of NARA’s Monitoring of the
            Executive Office of the President        01/13/2009          0          0             0
            System
09-07       Audit of the Omission of Classified
            Electronic Records from the EOP          01/16/2009          0          0             0
            System
09-10       Audit of NARA’s Workers’
            Compensation Program                     03/06/2009          0          0           $35,685




        SEMIANNUAL REPORT TO CONGRESS                                                         Page 32
        October 1, 2008 to March 31, 2009
REPORTING REQUIREMENTS

                   AUDIT REPORTS WITH QUESTIONED COSTS
                                        Requirement 5(a)(8)


                                             Number of             DOLLAR VALUE
Category                                      Reports          Questioned          Unsupported
                                                                 Costs                Costs

A. 	For which no management decision
                                                 0                 $0                   $0
     has been made by the commencement 

     of the reporting period

B. 	Which were issued during the
                                                 0                 $0                   $0
     reporting period 

     Subtotals (A + B) 
                         0                 $0                   $0
C. 	For which a management decision has
                                                 0                 $0                   $0
     been made during the reporting period
     (i) dollar value of disallowed cost         0                 $0                   $0
     (ii) dollar value of costs not
                                                 0                 $0                   $0
     disallowed
D. 	For which no management decision
     has been made by the end of the             0                 $0                   $0
     reporting period
E. 	 For which no management decision
                                                 0                 $0                   $0
     was made within 6 months



            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While significant audits on the ERA contract were completed during
this period (please see pages 15-16), these were program audits as opposed to contract audits.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 33
October 1, 2008 to March 31, 2009
REPORTING REQUIREMENTS

             AUDIT REPORTS WITH RECOMMENDATIONS THAT

                     FUNDS BE PUT TO BETTER USE

                                       Requirement 5(a)(9) 



             CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                        0                            $0
   the reporting period
B. Which were issued during the reporting
                                                           1                       $35,685
   period
   Subtotals (A + B)                                       1                       $35,685
C. For which a management decision has
                                                           1                            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                           0                            $0
        that were agreed to by management
        Based on proposed management
                                                           0                            $0
        Action
        Based on proposed legislative
                                                           0                            $0
        Action
   (ii) dollar value of recommendations
        that were not agreed to by                         0                            0
        management
D. For which no management decision has
   been made by the end of the reporting                   1                       $35,685
   period
E. For which no management decision was
   made within 6 months of issuance                        0                            0




                             OTHER REQUIRED REPORTS


REQUIREMENT                                 CATEGORY                               SUMMARY
5(a)(3)                   Prior significant recommendations unimplemented        None
5(a)(5)                   Information or assistance refused                      None
5(a)(10)                  Prior audit reports unresolved                         None
5(a)(11)                  Significant revised management decisions               None
5(a)(12)                  Significant revised management decisions with which    None
                          the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                Page 34
October 1, 2008 to March 31, 2009
